         Pension Benefit Guaranty Corporation
                  Office of Inspector General
                              Audit Report




   Audit of the Pension Benefit Guaranty Corporation’s
     Fiscal Year 2005 and 2004 Financial Statements
                            Independent Auditor’s Report

                  Independent Auditor’s Report on Internal Control

           Report of Independent Auditors on Compliance and Other Matters

______________________________________________________________________________


                     Pension Benefit Guaranty Corporation’s
                 Fiscal Year 2005 and 2004 Financial Statements
                      and Notes to the Financial Statements

_______________________________________________________________________




                           November 15, 2005
                                                                     2006-1/FA-0014-1
                     Pension Benefit Guaranty Corporation
                                                    Office of Inspector General
                                     1200 K Street, N.W., Washington, D.C. 20005-4026



To the Board of Directors
Pension Benefit Guaranty Corporation

We contracted with Clifton Gunderson LLP, an independent certified public accounting
firm, to audit the financial statements of the Single-Employer and Multiemployer Program
Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of September
30, 2005. The audit was performed in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued by the
Comptroller General of the United States, and the GAO/PCIE Financial Audit Manual.

Clifton Gunderson’s financial statement audit of PBGC’s Single-Employer and
Multiemployer Program Funds found:

   •	   The financial statements are presented fairly, in all material respects, in conformity
        with accounting principles generally accepted in the United States of America;

   •	   PBGC’s assertion about internal control over financial reporting and compliance
        with laws and regulations is fairly stated in all material respects;

   •	   Four reportable conditions, including three repeated from Fiscal Year 2004:
        financial management systems integration, information security, and single-
        employer premiums; and a new reportable condition: preparedness for
        unanticipated incidences and disruptions;

   •	   No instances of noncompliance with tested laws and regulations.

Clifton Gunderson is responsible for the accompanying auditor’s report dated November 9,
2005, and the conclusions expressed in the report. We do not express opinions on PBGC’s
financial statements or internal control, nor do we draw conclusions on compliance with
laws and regulations.

Clifton Gunderson’s reports (2006-1/FA-0014-1) are available on our website at
http://oig.pbgc.gov.

The financial statements of the Single-Employer and Multiemployer Program Funds
administered by PBGC as of September 30, 2004 were audited by other auditors whose
report dated November 12, 2004 expressed an unqualified opinion on those financial
statements. Their reports (2005-2/23182-2) are also available on our website.

Sincerely,



Robert L. Emmons
Inspector General

November 9, 2005
               Audit of the Pension Benefit Guaranty Corporation’s
                 Fiscal Year 2005 and 2004 Financial Statements
                          Audit Report 2006-1/FA-0014-1

                                          Contents


Section I:      Independent Auditor’s Report


Section II:     Independent Auditor’s Report on Internal Control


Section III:    Independent Auditor’s Report on Compliance
                and Other Matters


Section IV:     Pension Benefit Guaranty Corporation’s Fiscal Year
                2005 and 2004 Financial Statements and Notes to the
                Financial Statements


Section V:      Agency Comments


                                       Abbreviations


BAPD           Benefits Administration and Payment Department
BIA            Business impact analysis
COOP           Continuity of Operations Plan
CTO            Chief Technology Officer
FASD           Facilities and Services Department
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FOD            Financial Operations Department
FRS            Financial Reporting System
FY             Fiscal Year
GAO            Government Accountability Office
IPVFB          Integrated Present Value of Future Benefits
ISSO           Information Systems Security Officer
IT             Information Technology
LAN            Local Area Network
OIG            Office of Inspector General
OIT            Office of Information Technology
OMB            Office of Management and Budget
PA             Performance Accounting
PAS            Premium Accounting System
PBGC           Pension Benefit Guaranty Corporation
PCIE           President’s Council on Integrity and Efficiency
PDFN           Past Due Filing Notices
PLUS           Pension and Lump Sum System
PRISM          Participant Records Information Systems Management
SLCM           System Life Cycle Methodology
SOA            Statements of Account
TAS            Trust Accounting System
U.S.C.         United States Code
          Section I 


Independent Auditor’s Report 

a1

                                   Independent Auditor’s Report


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have audited the accompanying statements of financial condition of the Single-Employer and
Multiemployer Program Funds administered by the Pension Benefit Guaranty Corporation
(PBGC) as of September 30, 2005, and the related statements of operations and changes in net
position and cash flows for the year then ended. These financial statements are the responsibility
of PBGC’s management. Our responsibility is to express an opinion on these financial
statements based on our audit. The financial statements of the Single-Employer and
Multiemployer Program Funds administered by the PBGC as of September 30, 2004 were
audited by other auditors whose report dated November 12, 2004, expressed an unqualified
opinion on those financial statements.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes examining, on a test
basis, evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall financial statement presentation. We believe that
our audit provides a reasonable basis for our opinion.

In our opinion, the fiscal year 2005 financial statements referred to above present fairly, in all
material respects, the financial position of the Single-Employer and Multiemployer Program
Funds administered by PBGC as of September 30, 2005, and the results of their operations and
their cash flows for the year then ended in conformity with accounting principles generally
accepted in the United States of America.

By law, PBGC’s Single-Employer and Multiemployer Program Funds must be self-sustaining.
As of September 30, 2005, PBGC reported in its financial statements net deficit positions
(liabilities in excess of assets) in the Single-Employer and Multiemployer Program Funds of
$22,776 million and $335 million, respectively. As discussed in Note 7 to the financial



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705­3106
tel: 301­931­2050
fax: 301­931­1710
www.cliftoncpa.com                  Offices in 14 states and   Washington, DC     h

statements, losses as of September 30, 2005 for the Single-Employer and Multiemployer
Programs that are reasonably possible as a result of unfunded vested benefits are estimated to be
$108,000 million and $418 million, respectively. In addition, as discussed in Note 15 to the
financial statements, subsequent to September 30, 2005, business and financial conditions
significantly deteriorated for a sponsor of two large single-employer plans that may terminate.
Had these plan sponsor events occurred prior to September 30, 2005, PBGC’s Single-Employer
Program net deficit would have increased by $2,900 million. The PBGC’s net deficit, and long-
term viability, could be further impacted by losses from plans classified as reasonably possible
(or from other plans not yet identified as potential losses) as a result of deteriorating economic
conditions, the insolvency of a large plan sponsor or other factors. PBGC has been able to meet
their short-term benefit obligations. However, as discussed in Note 1 to the financial statements,
management believes that neither program at present has the resources to fully satisfy PBGC’s
long-term obligations to plan participants.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 9, 2005 on our consideration of PBGC’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws and regulations and other matters.
Those reports are an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.

The financial statement highlights, management’s discussion and analysis, actuarial valuation,
annual performance report, and financial summary contain a wide range of data, some of which
is not directly related to the financial statements. We do not express an opinion on this
information. However, we compared this information for consistency with the financial
statements and discussed the methods of measurement and presentation with PBGC officials.
Based on this limited work, we found no material inconsistencies with the financial statements.


a1

Calverton, Maryland
November 9, 2005




                                           Page 2 of 2

                   Section II 


Independent Auditor’s Report on Internal Control 

A1

                              Independent Auditor’s Report on Internal Control


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have examined management’s assertion that Pension Benefit Guaranty Corporation (PBGC)
maintained effective internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations as of September 30, 2005, based on the criteria contained
in the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) (31 U.S.C. 3512). PBGC’s
management is responsible for maintaining effective internal control. Our responsibility is to
express an opinion on management’s assertion based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards, issued
by the Comptroller General of the United States, and, accordingly, included obtaining an
understanding of the internal control over financial reporting (including safeguarding assets) and
compliance with laws and regulations, testing and evaluating the design and operating
effectiveness of the internal control, and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a reasonable basis for
our opinion.

We did not evaluate all internal controls relevant to operating objectives as broadly defined by
FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to controls over financial reporting and
compliance. Because of inherent limitations in any internal control, misstatements due to error,
fraud, losses, or noncompliance may occur and not be detected. Also, projections of any
evaluation of the internal control to future periods are subject to the risk that the internal control
may become inadequate because of changes in conditions, or that the degree of compliance with
the policies or procedures may deteriorate.

In our opinion, management’s assertion that PBGC maintained effective internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations as
of September 30, 2005 is fairly stated, in all material respects, based on criteria contained in
FMFIA.




Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705­3106
tel: 301­931­2050                                      1 of 10
fax: 301­931­1710
www.cliftoncpa.com                        Offices in 14 states and   Washington, DC   h

However, we noted certain matters involving the internal control over financial reporting
(including safeguarding assets) and compliance with laws and regulations and its operation that
we consider to be reportable conditions. Reportable conditions involve matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over
financial reporting (including safeguarding assets) and compliance with laws and regulations
that, in our judgment, could adversely affect PBGC’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.
Reportable conditions we noted are as follows:

     1.	 PBGC needs to integrate its financial management systems (Repeat Condition);
     2.	 PBGC needs to complete its efforts to fully implement and enforce an effective
         information security program (Repeat Condition);
     3.	 PBGC needs to improve controls related to single-employer premiums (Repeat
         Condition); and
     4.	 PBGC needs to strengthen its preparedness for unanticipated incidences and
         disruptions.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. We believe that none of
the reportable conditions described in this report are material weaknesses.

                              ********************************

REPORTABLE CONDITIONS

1.     PBGC Needs to Integrate Its Financial Management Systems (Repeat Condition)

       A lack of integration of PBGC’s financially significant systems was identified in prior
       year audits. These systems include: Financial Reporting System (FRS), Performance
       Accounting (PA) System, Trust Accounting System (TAS), Participant Records
       Information System Management (PRISM), Premium Accounting System (PAS),
       Integrated Present Value of Future Benefits (IPVFB), and Pension and Lump Sum
       System (PLUS).

       Office of Management and Budget (OMB) Circular A-127 Financial Management
       System requires that financial management systems should be designed to provide for
       effective and efficient interrelationships between systems. This Circular states the
       following:

               The term "single, integrated financial management system" means a
               unified set of financial systems and the financial portions of mixed
               systems encompassing the software, hardware, personnel, processes
               (manual and automated), procedures, controls and data necessary to carry


                                               2 of 10

        out financial management functions, manage financial operations of the
        agency and report on the agency's financial status to central agencies,
        Congress and the public. Unified means that the systems are planned for
        and managed together, operated in an integrated fashion, and linked
        together electronically in an efficient and effective manner to provide
        agency-wide financial system support necessary to carry out the agency's
        mission and support the agency's financial management needs.

OMB’s Office of Federal Financial Management (OFFM – formerly the Joint Financial
Management Improvement Program – JFMIP)’s “Core Financial System Requirements”
document, lists the following integrated, financial management system attributes:

   �	   Standard data classifications (definition and formats) established and used for
        recording financial events;
   �	   Common processes used for processing similar kinds of transactions;
   �	   Internal controls over data entry, transaction processing, and reporting applied
        consistently; and
   �	   A system design that eliminates unnecessary duplication of transaction entry.

PBGC has effective controls to foster data integrity among its financially significant
systems and is currently instituting methodologies that will promote further integration as
systems are developed or changed, which was evidenced by the following:

   �	   PBGC has contracted with a firm to implement an integrated solution for its
        financial management system;
   �	   The system interface controls, used to reconcile data transmitted to and from the
        three general ledger applications, appear to be operating effectively;
   �	   The manual interface controls, used to reconcile data between IPVFB and FRS,
        appear to be operating effectively; and
   �	   Progress has been made on the development of a logical database model for
        Benefits Administration and Payment Department (BAPD) databases. Once
        database models are implemented for BAPD and Financial Operations
        Department (FOD), all new development will be required to conform to these
        models (physical re-design will be implemented as applications are developed or
        significantly enhanced).

Despite the above, we believe more needs to be done to integrate PBGC's existing
financially significant systems. We identified the following factors relevant to the
integration of systems:

Lack of standard data classifications and common data elements:

   �	   The logical database models for BAPD and FOD were not yet implemented or
        available for our review during fiscal year (FY) 2005. Therefore, no centralized
        data catalog defining data elements or data access methods is available for current
        databases;


                                      3 of 10
   �	   The current decentralized database structure may lead to erroneous financial and
        participant data. For example, the same data elements are required to be
        reformatted or are used for different purposes across PBGC's various applications;
        and
   �	   The current decentralized database structure may lead to untimely financial or
        participant data. Participant data must be reformatted and distributed to multiple
        PBGC systems; therefore, users may be relying on outdated information to make
        business decisions.

Duplication of transaction entry:

   �	   PBGC uses three general ledger systems (TAS, PA, and FRS) to track trust,
        revolving and consolidated transactions rather than one system to track all three.
        Therefore, manual adjusting journal entries are required to synchronize the data
        between TAS, PA, and FRS;
   �	   Probable and multiemployer plan data initially entered into IPVFB must be
        manually re-entered into a spreadsheet and then manually entered into FRS as
        adjusting journal entries;
   �	   Plan data initially entered into the Case Administration System (CAS) application
        must be reentered into the TAS application's portfolio header;
   �	   Plan contingency listings are determined using data extracted from PAS.
        However, plans with multiple filings must be manually aggregated before the
        plans can be classified; and
   �	   Plan sponsor data initially entered into PAS to process receivables must also be
        entered into PA to process refunds.

Poor data integrity:

   �	   The data in the PAS requires significant manual review and adjustment before it
        can be used for the purposes of reporting the premiums income and receivables in
        PBGC's financial statements.

Systems not planned or managed together:

   �	   PBGC has not finalized the System Life Cycle Methodology (SLCM) that would
        foster integration for newly developed applications. Our testing identified the
        following issues:
        o	 The SLCM policy is still in the process of becoming a directive;
        o	 Several SLCM components are still in draft; and
        o	 The Enterprise Architecture component of the SLCM does not require
            compliance with the FOD and BAPD database models.

In the short term, PBGC’s ability to accurately and efficiently accumulate and summarize
information required for internal and external financial reporting may be impacted. For
this reason, this issue remains a reportable condition for FY 2005.



                                      4 of 10

      Recommendation:

      We are encouraged by the improvement made and direction taken by PBGC in the areas
      noted above. However, we recommend that PBGC continue its efforts in this area by
      doing the following:

         �	   Integrate its financial management systems, in accordance with OMB Circular A-
              127. (OIG Control Number FOD-268)

2.	   PBGC Needs to Complete its Efforts to Fully Implement and Enforce an Effective
      Information Security Program (Repeat Condition)

      Improvement is needed to PBGC’s enterprise-wide security management program as
      indicated in prior year audits. During our FY 2005 review of PBGC's existing security
      program, we noted that PBGC made the following progress:

         �	   Office of Information Technology (OIT) has undertaken efforts to update the
              general security policies to reflect the current operating environment and
              complete the implementation of a fully functional and integrated enterprise-wide
              information security program;
         �	   OIT is developing a high-level control framework of risk assessment/evaluation,
              establishing a risk mitigation plan and long term strategy encompassing control
              objectives, control techniques, monitoring and periodic re-evaluations;
         �	   Effective with FY 2004, the Information System Security Officer (ISSO) now
              reports directly to the Chief Technology Officer (CTO). This reporting
              relationship provides the ISSO with improved visibility; and
         �	   Background or suitability checks appear to be performed consistently for all
              federal employees and contractors across PBGC.

      Our review of PBGC's existing security program revealed continuing weaknesses in
      controls that expose PBGC's financially significant systems and data to unauthorized
      access and/or modification. Weaknesses included the following:

         �	   PBGC OIT security management, application owners, and application
              administrators have not completed effective security plans, risk assessments,
              certifications, and accreditations for PBGC's financially significant applications
              and general support systems. Furthermore, OIT has not developed or documented
              criteria and guidance to conduct risk assessments, certifications, and
              accreditations;
         �	   PBGC has not consistently deployed security configurations across its financially
              significant applications and general support systems;
         �	   PBGC has not formalized effective processes for granting, removing, and
              recertifying user access to financially significant applications and general support
              systems;




                                            5 of 10

         �	   Application owners or administrators do not perform periodic auditing and
              monitoring of user access and sensitive transactions for financially significant
              systems;
         �	   OIT management’s, application owners’, and application administrators’ duties
              are not clearly defined regarding user and security administration for financially
              significant systems;
         �	   PBGC has granted developers inappropriate access to the production
              environment; and
         �	   OIT has not developed a process that would allow the ISSO to manage and
              monitor the effectiveness of the entity-wide security program.

      Until PBGC implements a complete enterprise-wide information security program, its
      ability to mitigate effectively the risk of unauthorized access to, and/or modification or
      disclosure of, sensitive PBGC financial information will be impaired.

      We recommend that PBGC management perform the following:

         �	   Assign specific resources to 1) update the general security plan and associated
              security policies to reflect the current operating environment, and 2) complete the
              implementation of a fully functional and integrated enterprise-wide information
              security program, with priority given to implementation and monitoring of
              technical security standards; and (OIG Control Number CTO-5)
         �	   Develop enforcement mechanisms to ensure that all departments comply with the
              enterprise-wide information security program, as well as consistently enforce
              policies and procedures for logical access to information resources that are based
              on the concepts of "least possible privilege". (OIG Control Number CTO-6)

3.	   PBGC Needs to Improve Controls Related to Single-Employer Premiums (Repeat
      Condition)

      Work performed during the 2003 financial statement audit and separately by PBGC’s
      Inspector General, indicated several internal control weaknesses related to the single-
      employer premiums. Management has acknowledged the weaknesses associated with the
      single-employer premiums and has taken steps, including plans for a new premium
      accounting system, to improve the internal controls for premiums. However, we note
      continued internal control weaknesses in our 2005 audit.

      The control weaknesses we identified relate to the following internal control objectives:

         �	   Safeguarding of Assets - Ensuring PBGC collects all premiums due under statute.
              OMB Circular A- 123, Management Accountability and Controls, requires that:
              “Management controls must provide reasonable assurance that assets are
              safeguarded against waste, loss, unauthorized use, and misappropriation.
              Management controls developed for agency programs should be logical,
              applicable, reasonably complete, and effective and efficient in accomplishing
              management objectives”; and


                                            6 of 10

   �	   Financial Reporting - Ensuring PBGC reports complete and reliable premium
        revenue and receivables in the financial statements. OMB Circular A-123 states
        that "transactions should be promptly recorded, properly classified and accounted
        for in order to prepare timely accounts and reliable financial and other reports".

Data quality weaknesses:

During PAS conversion from the legacy Premium Processing System PBGC experienced
difficulty in migrating data. This difficulty is the underlying cause of several of the
control weaknesses noted during our testing. We noted the following weaknesses that
PBGC is currently addressing:

   �	   PBGC completed its draft Suspense Processing Manual on October 4, 2005,
        which defines monitoring controls to ensure that old items are cleared in a timely
        and correct manner. These controls have not been fully implemented; and
   �	   PBGC indicated that the target for completing the development and
        implementation of its policies and procedures requiring all suspended transactions
        to be researched and resolved in a timely manner and ensuring that adjustments
        are appropriately reviewed and approved is January 31, 2007.

PBGC does not have or maintain a complete list of plans that are required to file a Form 1
(premium filing form) with PBGC because it is a voluntary filing program. As such,
PBGC’s ability to effectively ensure that participating plans, particularly ones that are
newly formed, have filed and paid premiums is limited. PBGC’s ability to collect
premiums owed is further limited because the Audit and Enforcement module within
PAS to compare Form 1 filings to pension plan Form 5500 filings with the Department of
Labor is not currently functional and will not be until the new premium system is
implemented. Completing this analysis would enable PBGC to potentially identify plans
which had not filed or paid their associated premiums. PBGC notes that resource
constraints prevent them from developing and implementing software to reconcile the
filings.

Impact of data quality weaknesses:

Because of the data quality issues noted, PBGC is unable to efficiently utilize two of its
primary tools, Past Due Filing Notices (PDFN) and Statements of Account (SOA), to
ensure the accuracy and completeness of premium data. The PDFN is a PAS-generated
notice mailed to plans that have not submitted premiums. The SOA is also a PAS-
generated notice used to ensure that underpaid or overpaid premiums from a plan sponsor
are effectively rectified. We noted during the audit that PDFNs and SOAs are not mailed
timely in accordance with PBGC policy because significant resources must be expended
prior to mailing each notice to validate the information. Because these notices are not
mailed in a timely manner, the potential exists that premiums will not be collected or that
errors in amounts reflected in PAS will not be detected.




                                      7 of 10

      Other control matters:

      Finally, we noted that all of the pertinent policies and procedures related to the premium
      accounting cycle have not been documented, communicated, or implemented throughout
      PBGC.

      Recommendations:

      While we acknowledge that PBGC is currently working toward the implementation of
      a new premium system with an implementation date currently scheduled for January
      2007, we continue to recommend that PBGC:

         �	   Develop and implement policies and procedures requiring all suspended
              transactions be researched and resolved in a timely manner and ensuring that
              adjustments are appropriately reviewed and approved; (OIG Control Number
              FOD-333)
         �	   Implement controls to reconcile Form 1 information received by PBGC to Form
              5500 information received by the Department of Labor as a means of identifying
              plans that have not filed or paid their associated premiums; and (OIG Control
              Number FOD-334)
         �	   Compile a comprehensive polices and procedures manual for processing and
              accounting for premium revenue. (OIG Control Number FOD-335)

4.	   PBGC Needs to Strengthen Its Preparedness for Unanticipated Incidences and
      Disruptions

      Although PBGC has developed significant elements of a Continuity of Operations Plan
      (COOP), service continuity control deficiencies impacted PBGC’s ability to respond to
      a disruption in business operations. The purpose of service continuity controls is to
      ensure that when unexpected events occur, critical operations continue without
      interruption or are promptly resumed. Losing the capability to process and protect
      information maintained on PBGC’s computer systems can significantly impact PBGC’s
      ability to accomplish its mission, maintain productivity, and ensure financial integrity.

      Strong service continuity controls would include adequate procedures to protect
      information resources and minimize the risk of unplanned interruptions and a plan to
      recover critical operations should interruptions occur. This plan should consider
      activities performed at PBGC’s general support facilities (e.g. PBGC’s LAN, wide area
      network, and telecommunications facilities), as well as the activities performed by users
      of specific applications. To determine whether these procedures will work as intended,
      PBGC should include them in their periodic testing in disaster simulation exercises.

      Deficiencies in PBGC’s COOP severely challenged its preparedness to continue its
      operations after unanticipated incidences and disruptions. As a result of these
      deficiencies, PBGC’s recovery strategy failed after it experienced a significant hardware
      malfunction. This malfunction interrupted IT services needed to accomplish some
      critical PBGC functions at headquarters for nine (9) days.


                                            8 of 10

       We identified the following service continuity control deficiencies in PBGC’s
       completion of key elements required in establishing a comprehensive COOP:

          �	   PBGC’S business impact analysis (BIA), a key component in the contingency
               planning process, did not address contingencies relating to system outages and
               degradation issues at headquarters. The BIA’s purpose is to correlate specific
               system components with the critical services that they provide, and based on that
               information, to characterize the consequences of a disruption to the system
               components. Results from the BIA should be appropriately incorporated into the
               analysis and strategy development efforts for PBGC’s COOP;
          �	   PBGC’s COOP policy statement is too narrow. It only establishes one objective,
               (e.g. to continue to perform certain critical functions of PBGC in the event that an
               emergency renders or threatens to render the PBGC sites unusable). PBGC does
               not have a contingency planning policy statement that addresses a comprehensive
               set of objectives for the establishment of the organizational framework and
               responsibilities for comprehensive contingency planning of which COOP is one
               component; and
          �	   PBGC’s recovery strategies do not address disruption impacts and allowable
               outage times for the failure and/or degradation of critical system components at
               headquarters. The strategy does not include a combination of methods that
               complement one another to provide recovery capability over the full spectrum of
               incidents.

     Recommendations:

          �	 First, establish and implement a contingency planning policy statement that
             addresses a comprehensive set of objectives for the establishment of the
             organizational framework and responsibilities for comprehensive contingency
             planning; (OIG Control Number FASD-130)
          �	 Second, conduct a BIA that addresses a full set of contingencies, including system
             outages and degradation issues at headquarters; and (OIG Control Number
             FASD-131)
          �  Finally, develop, document, implement, and test recovery strategies as part of
             PBGC’s COOP to achieve the comprehensive set of objectives in PBGC’s
             contingency planning policy statement and address the disruption impacts and
             allowable outage times identified in PBGC’s comprehensive BIA. (OIG Control
             Number FASD-132)

                            ********************************

In addition to the reportable conditions described above, we noted certain matters involving
internal control and its operation that we reported to the management of PBGC in a separate
letter dated November 9, 2005.




                                             9 of 10

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, Office of Management and Budget and United States
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.



A1

Calverton, Maryland
November 9, 2005




                                            10 of 10

                Section III

Independent Auditor’s Report on Compliance
            and Other Matters
a1

                   Independent Auditor’s Report on Compliance and Other Matters


To the Inspector General of the
Pension Benefit Guaranty Corporation


We have audited the financial statements of the Single-Employer and Multiemployer Program
Funds administered by the Pension Benefit Guaranty Corporation (PBGC) as of and for the year
ended September 30, 2005, and have issued our report thereon dated November 9, 2005. We
conducted our audit in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards, issued by the Comptroller General of the United States.

The management of PBGC is responsible for complying with laws and regulations applicable to
PBGC. As part of obtaining reasonable assurance about whether PBGC’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. We limited our tests of compliance to these
provisions and we did not test compliance with all laws and regulations applicable to PBGC.
However, providing an opinion on compliance with those provisions was not an objective of our
audit and, accordingly, we do not express such an opinion.

The results of our tests of compliance disclosed no instances of noncompliance with laws and
regulations discussed in the preceding paragraph or other matters that are required to be reported
under Government Auditing Standards.

This report is intended solely for the information and use of PBGC’s Office of Inspector General,
Board of Directors, management of PBGC, Office of Management and Budget and United States
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.


a1

Calverton, Maryland
November 9, 2005


Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705­3106
tel: 301­931­2050
fax: 301­931­1710
www.cliftoncpa.com                  Offices in 14 states and   Washington, DC     h

              Section IV

Pension Benefit Guaranty Corporation’s
 Fiscal Year 2005 and 2004 Financial
     Statements and Notes to the
         Financial Statements
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                                              Single-Employer          Multiemployer              Memorandum
                                                                                                  Program                 Program                      Total
                                                                                               September 30,            September 30,               September 30,
(Dollars in millions)                                                                      2005           2004       2005           2004        2005           2004


ASSETS
Cash and cash equivalents                                                           $ 8,889            $ 7,692   $     13        $     14    $ 8,902       $ 7,706

Investments, at market (Note 3):
  Fixed maturity securities                                                           33,160            17,333       1,134           1,042    34,294         18,375
  Equity securities                                                                   12,284            11,115           0               1    12,284         11,116
  Real estate and real estate investment trusts                                              29            91           0               0        29             91
  Other                                                                                      25            23           0               0        25             23
  Total investments                                                                   45,498            28,562       1,134           1,043    46,632         29,605

Receivables, net:
 Sponsors of terminated plans                                                               146           129           0               0       146            129
  Premiums (Note 9)                                                                          425           619          0               1        425            620
  Sale of securities                                                                       1,124         1,756          0               0      1,124          1,756
  Investment income                                                                         359           213          13              12       372            225
  Other                                                                                       2             2           0               0         2              2
  Total receivables                                                                    2,056             2,719         13              13      2,069          2,732

Capitalized assets, net                                                                      27            20           0               0        27             20

Total assets                                                                        $56,470            $38,993   $1,160           $1,070     $57,630        $40,063

Th e ac com pa nying no tes a re a n in teg ral p art o f these f ina ncial statem ents.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF FINANCIAL CONDITION
                                                                       Single-Employer               Multiemployer                Memorandum
                                                                           Program                     Program                        Total
                                                                         September 30,               September 30,                September 30,
(Dollars in millions)                                                2005             2004        2005          2004         2005              2004

LIABILITIES
Present value of future benefits, net (Note 4):
  Trusteed plans                                                $ 57,291         $ 43,344    $      2        $      3    $ 57,293          $ 43,347

  Plans pending termination and trusteeship                        1,918              501           0               0       1,918              501

  Settlements and judgments                                           58               65           0               0         58                 65

  Claims for probable terminations                               10,470            16,926           0               0     10,470            16,926

  Total present value of future benefits, net                    69,737            60,836           2               3     69,739            60,839

Present value of nonrecoverable future
 financial assistance (Note 5)                                                               1,485               1,295      1,485             1,295
Payable upon return of securities loaned                           6,939              637           0               0      6,939               637
Unearned premiums                                                    210              223           8               8        218               231

Due for purchases of securities                                    2,290              531           0               0      2,290               531

Accounts payable and accrued expenses (Note 6)                        70               71           0               0         70                 71

Total liabilities                                                79,246            62,298    1,495               1,306    80,741            63,604


Net position                                                    (22,776)          (23,305)       (335)           (236)    (23,111)          (23,541)

Total liabilities and net position                             $ 56,470          $ 38,993    $1,160           $1,070     $ 57,630          $ 40,063

The accompanying notes are an integral part of these financial statements.


Commitments and contingencies
  (Notes 7, 8, 14 and 15)
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF OPERATIONS AND CHANGES IN NET POSITION
                                                                    Single-Employer                 Multiemployer                    Memorandum
                                                                        Program                       Program                           Total

                                                                   For the Years Ended           For the Years Ended             For the Years Ended

                                                                      September 30,                 Septem ber 30,                  September 30,
(Dollars in millions)                                              2005           2004           2005            2004            2005           2004
UNDERWRITING
Income:
  Premium (Note 9)                                           $    1,451        $ 1,458       $     26           $ 27        $     1,477      $ 1,485
  Other                                                              44                24           0                  0             44            24
  Total                                                           1,495           1,482            26                27           1,521         1,509
Expenses:
 Administrative                                                     311               263           0                  0            311           263
  Other                                                              77               (36)          0                  0             77           (36)
  Total                                                            388                227           0                  0           388            227
Other underwriting activity:
 Losses from completed and
  probable terminations (Note 10)                                 3,954          14,707             0                  0          3,954        14,707
  Losses from financial assistance (Note 5)                                                       204                55            204             55
  Actuarial adjustments (Note 4)                                   220            1,525             0                  1           220          1,526
  Total                                                           4,174          16,232           204                56           4,378        16,288
Underwriting loss                                                (3,067)        (14,977)         (178)               (29)       (3,245)       (15,006)

FINANCIAL:
Investment income (Note 11):
  Fixed                                                           1,755               983          79                54           1,834         1,037
  Equity                                                          2,114           2,196             0                  0          2,114         2,196
  Other                                                              28                18           0                  0             28            18
  Total                                                           3,897           3,197            79                54           3,976         3,251
Expenses:
 Investment                                                          31                25           0                  0             31            25
  Actuarial charges (Note 4):
   Due to passage of time                                         2,618           1,881             0                  0          2,618         1,881
    Due to change in interest rates                              (2,348)         (1,619)            0                  0         (2,348)       (1,619)
  Total                                                             301               287           0                  0            301           287
Financial income                                                  3,596           2,910            79                54           3,675         2,964
Net income (loss)                                                  529          (12,067)          (99)               25            430        (12,042)

Net position, beginning of year                               (23,305)          (11,238)         (236)              (261)       (23,541)      (11,499)
Net position, end of year                                   $(22,776)          $(23,305)     $(335)             $(236)      $(23,111)        $(23,541)

The accompanying notes are an integral part of these financial statements.
PENSION BENEFIT GUARANTY CORPORATION
STATEMENTS OF CASH FLOWS
                                                                     Single-Employer           Multiemployer                  Memorandum
                                                                         Program                  Program                          Total
                                                                   For the Years Ended      For the Years Ended             For the Years Ended
                                                                       September 30,           September 30,                   September 30,
(Dollars in millions)                                              2005           2004       2005         2004             2005             2004
OPERATING ACTIVITIES:
 Premium receipts                                           $     1,595      $     1,108    $     26    $     28     $     1,621        $ 1,136
 Interest and dividends received, net                             1,344           1,155           64          64           1,408          1,219
 Cash received from plans upon trusteeship                         218               51            0            0           218              51
 Receipts from sponsors/non-sponsors                               139              120            0            0           139             120
 Receipts from the missing participant program                       8                 3           0            0              8               3
 Other receipts                                                    137                 4           0            0           137                4
 Benefit payments - trusteed plans                              (3,301)           (2,888)         (1)          (1)       (3,302)          (2,889)
 Financial assistance payments                                                                   (14)         (10)          (14)             (10)
 Settlements and judgments                                          (5)               (7)          0            0            (5)              (7)
 Payments for administrative and other expenses                   (324)            (278)           0            0          (324)           (278)
Net cash provided (used) by operating activities
 (Note 13)                                                        (189)            (732)          75          81            (114)          (651)


INVESTING ACTIVITIES:
 Proceeds from sales of investments                             131,442          44,332         5,114       1,267        136,556         45,599
 Payments for purchases of investments                      (136,357)            (39,497)   (5,190)     (1,342)      (141,547)           (40,839)
 Change in security lending collateral                         6,301                 417         0           0          6,301                417
Net cash provided (used) by investing activities                  1,386           5,252          (76)         (75)         1,310          5,177

Net increase (decrease) in cash and cash equivalents              1,197           4,520           (1)           6          1,196          4,526
Cash and cash equivalents, beginning of year                     7,692            3,172           14            8          7,706          3,180
Cash and cash equivalents, end of year                     $     8,889       $     7,692    $     13    $     14     $     8,902        $ 7,706

The accompanying notes are an integral part of these financial statements.
NOTES TO FINANCIAL STATEMENTS
SEPTEMBER 30, 2005 AND 2004

Note 1 -- Organization and Purpose
        The Pension Benefit Guaranty Corporation (PBGC or the Corporation) is a federal corporation
created by Title IV of the Employee Retirement Income Security Act of 1974 (ERISA) and is subject to
the provisions of the Government Corporation Control Act. Its activities are defined in ERISA as
amended by the Multiemployer Pension Plan Amendments Act of 1980, the Single-Employer Pension
Plan Amendments Act of 1986, the Pension Protection Act of 1987, the Retirement Protection Act of
1994 and the Consolidated Appropriations Act, 2001. The Corporation insures the pension benefits,
within statutory limits, of participants in covered single-employer and multiemployer defined benefit
pension plans.
        ERISA requires that PBGC programs be self-financing. The Corporation’s principal operational
resources are premiums collected from covered plans, assets assumed from terminated plans, collection
of employer liability payments due under ERISA, and investment income. ERISA provides that the
U.S. Government is not liable for any obligation or liability incurred by PBGC.
         As of September 30, 2005, the single-employer and multiemployer programs reported deficits of
$22.776 billion and $335 million, respectively. The single-employer program had assets of nearly $56.5
billion which is offset by total liabilities of $79.2 billion, which includes a total present value of future
benefits (PVFB) of approximately $69.7 billion. As of September 30, 2005, multiemployer program had
assets of approximately $1.2 billion offset by approximately $1.5 billion in present value of
nonrecoverable future financial assistance.
        Notwithstanding these deficits, the Corporation has sufficient liquidity to meet its obligations for
a number of years; however, neither program at present has the resources to fully satisfy PBGC’s long-
term obligations to plan participants.


Single-Employer and Multiemployer Program Exposure
        Measures of risk in PBGC’s insured base of plan sponsors suggest that the single-employer
deficit may continue to worsen. PBGC’s best estimate of the total underfunding in plans sponsored by
companies with credit ratings below investment grade and classified by PBGC as reasonably possible of
termination as of September 30, 2005, was $108 billion. The comparable estimates of reasonably
possible exposure for 2004 and 2003 were $96 billion and $82 billion, respectively. These estimates are
measured as of December 31 of the previous year (see Note 7). For 2005, this exposure is concentrated
in the following sectors: manufacturing; transportation, communication and utilities; and services/other.
        PBGC estimates that the total underfunding in single-employer plans exceeded $450 billion
(unaudited), as of September 30, 2005, and as of September 30, 2004. PBGC’s estimate of
underfunding as of September 30, 2005, is largely (about 80%) based upon employers’ reports to PBGC
under section 4010 of ERISA of their December 31, 2004, market value of assets and termination
liability. These values were then rolled forward to September 30, 2005, on a plan-by-plan basis using an
average pension asset return from published reports, an average benefit accrual increment, and a liability
adjustment factor to reflect the change in interest factors. The roll forward did not adjust for
contributions, benefit payments, changes in liabilities due to the passage of time, or plan amendments
since this information was not readily or reliably available. PBGC’s exposure to loss is less than these
amounts because of the statutory limits on insured pensions. For single-employer plans sponsored by
employers that do not file with PBGC under section 4010 of ERISA, PBGC’s estimates are based on
data obtained from other filings and submissions with the government and from corporate annual
reports for fiscal years ended in calendar 2004.
        Total underfunding of multiemployer plans is estimated to exceed $200 billion (unaudited) at
September 30, 2005. In 2004, PBGC estimated that multiemployer underfunding exceeded $150 billion
(unaudited). Multiemployer plan data is much less current and complete than single-employer data--it is
generally two years older and in some cases three years older than single-employer data and comes only
from Form 5500 filings.
        PBGC estimates that, as of September 30, 2005, it is reasonably possible that multiemployer
plans may require future financial assistance in the amount of $418 million. As of September 30, 2004
and 2003, these exposures were estimated at $108 million and $63 million, respectively.
        There is significant volatility in plan underfunding and sponsor credit quality over time, which
makes long-term estimates of PBGC’s expected claims difficult. This volatility, and the concentration of
claims in a relatively small number of terminated plans, have characterized PBGC’s experience to date
and will likely continue. Among the factors that will influence PBGC’s claims going forward are
economic conditions affecting interest rates, financial markets, and the rate of business failures.
        Under the single-employer program, PBGC is liable for the payment of guaranteed benefits with
respect only to underfunded terminated plans. An underfunded plan may terminate only if PBGC or a
bankruptcy court finds that one of the four conditions for a distress termination, as defined in ERISA, is
met or if PBGC involuntarily terminates a plan under one of five specified statutory tests. The net
liability assumed by PBGC is generally equal to the present value of the future benefits payable by
PBGC less amounts provided by the plan’s assets and amounts recoverable by PBGC from the plan
sponsor and members of the plan sponsor’s controlled group, as defined by ERISA.
        Under the multiemployer program, if a plan becomes insolvent, it receives financial assistance
from PBGC to allow the plan to continue to pay participants their guaranteed benefits. PBGC
recognizes assistance as a loss to the extent that the plan is not expected to be able to repay these
amounts from future plan contributions, employer withdrawal liability or investment earnings.

Note 2 -- Significant Accounting Policies
        Basis of Presentation: The accompanying financial statements have been prepared in
accordance with accounting principles generally accepted in the United States of America (GAAP). The
preparation of the financial statements in conformity with GAAP requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities and disclosure of
contingent assets and liabilities at the date of the financial statements and the reported amounts of
revenues and expenses during the reporting period. Estimates and assumptions may change over time
as new information is obtained or subsequent developments occur. Actual results could differ from
those estimates.
        Valuation Method: A primary objective of PBGC’s financial statements is to provide
information that is useful in assessing PBGC’s present and future ability to ensure that its plan
beneficiaries receive benefits when due. Accordingly, PBGC values its financial assets at estimated fair
value, consistent with the standards for pension plans contained in Statement of Financial Accounting
Standards (FAS) No. 35 (“Accounting and Reporting by Defined Benefit Pension Plans”). PBGC
values its liabilities for the present value of future benefits and present value of nonrecoverable future
financial assistance using assumptions derived from annuity prices from insurance companies, as
described in the Statement of Actuarial Opinion. As described in Paragraph 21 of FAS No. 35, the
assumptions are “those assumptions that are inherent in the estimated cost at the (valuation) date to
obtain a contract with an insurance company to provide participants with their accumulated plan
benefits.” Also, in accordance with Paragraph 21 of FAS No. 35, PBGC selects assumptions for
expected retirement ages and the cost of administrative expenses in accordance with its best estimate of
anticipated experience.
        Revolving and Trust Funds: PBGC accounts for its single-employer and multiemployer
programs’ revolving and trust funds on an accrual basis. Each fund is charged its portion of the benefits
paid each year. PBGC has combined the revolving and trust funds for presentation purposes in the
financial statements. The single-employer and multiemployer programs are separate programs by law
and, therefore, PBGC reports them separately.
        ERISA provides for the establishment of the revolving fund where premiums are collected and
held. The assets in the revolving fund are used to cover deficits incurred by plans trusteed and provides
funds for financial assistance. The Pension Protection Act of 1987 created a single-employer revolving
(7th) fund that is credited with all premiums in excess of $8.50 per participant, including all penalties and
interest charged on these amounts, and its share of earnings from investments. This fund may not be
used to pay PBGC’s administrative costs or the benefits of any plan terminated prior to October 1,
1988, unless no other amounts are available.
        The trust funds include assets PBGC acquires or expects to acquire with respect to terminated
plans (e.g., investments) and investment income thereon. These assets generally are held by custodian
banks. The trust funds support the operational functions of PBGC.
        The trust funds reflect accounting activity associated with: (1) trusteed plans -- plans for which
PBGC has legal responsibility–the assets and liabilities are reflected separately on PBGC’s balance sheet,
the income and expenses are included in the income statement and the cash flows from these plans are
included in the cash flow statement, (2) plans pending termination and trusteeship -- plans for which
PBGC has begun the process for termination and trusteeship by fiscal year-end - the assets and liabilities
for these plans are reported as a net amount on the liability side of the balance sheet under Present value
of future benefits, net. For these plans, the income and expenses are included in the income statement,
but the cash flows are not included in the cash flow statement, and (3) probable terminations -- plans
that PBGC determines are likely to terminate and be trusteed by PBGC–the assets and liabilities for
these plans are reported as a net amount on the liability side of the balance sheet under Present value of
future benefits, net. The accrued loss from these plans is included in the income statement as part of
Losses from completed and probable terminations. The cash flows from these plans are not included in
the cash flow statement. PBGC cannot exercise legal control over a plan’s assets until it becomes trustee.
        Allocation of Revolving and Trust Funds: PBGC allocates assets, liabilities, income and
expenses to each program’s revolving and trust funds to the extent that such amounts are not directly
attributable to a specific fund. Revolving fund investment income is allocated on the basis of each
program’s average cash and investments available during the year while the expenses are allocated on the
basis of each program’s present value of future benefits. Revolving fund assets and liabilities are
allocated on the basis of the year-end equity of each program’s revolving funds. Plan assets acquired by
PBGC and commingled at PBGC’s custodian bank are credited directly to the appropriate fund while
the earnings and expenses on the commingled assets are allocated to each program’s trust funds on the
basis of each trust fund’s value, relative to the total value of the commingled fund.
        Cash and Cash Equivalents: Cash includes cash on hand and demand deposits as well as cash
collateral retained as security for securities lent. Cash equivalents are securities with a maturity of one
business day.
        Investment Valuation and Income: PBGC bases market values on the last sale of a listed
security, on the mean of the “bid-and-ask” for nonlisted securities or on a valuation model in the case of
fixed-income securities that are not actively traded. These valuations are determined as of the end of
each fiscal year. Purchases and sales of securities are recorded on the trade date. In addition, PBGC
invests in and discloses its derivative investments in accordance with the guidance contained in FAS No.
133 (“Accounting for Derivative Instruments and Hedging Activities”), as amended. Investment
income is accrued as earned. Dividend income is recorded on the ex-dividend date. Realized gains and
losses on sales of investments are calculated using first-in, first-out for the revolving fund and average
cost for the trust fund. PBGC marks the plan’s assets to market and any increase or decrease in the
market value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be
credited to or suffered by PBGC.
        Sponsors of Terminated Plans, Receivables: The amounts due from sponsors of terminated
plans or members of their controlled group represent the settled, but uncollected, claims for employer
liability (underfunding as of date of plan termination) and for contributions due their plan less an
allowance for estimated uncollectible amounts. PBGC discounts any amounts expected to be received
beyond one year for time and risk factors. Some agreements between PBGC and plan sponsors provide
for contingent payments based on future profits of the sponsors. The Corporation will report any such
future amounts in the period they are realizable. Income and expenses related to amounts due from
sponsors are reported in the underwriting section of the Statements of Operations and Changes in Net
Position. Interest earned on settled claims for employer liability and due and unpaid employer
contributions (DUEC) is reported as “Income: Other.” The change in the allowances for uncollectible
employer liability and DUEC is reported as “Expenses: Other.”
        Premiums: Premiums receivable represent the estimated earned but unpaid portion of the
premiums for plans that have a plan year commencing before the end of PBGC’s fiscal year and past
due premiums deemed collectible, including penalties and interest. The liability for unearned premiums
represents an estimate of payments received during the fiscal year that cover the portion of a plan’s year
after PBGC’s fiscal year-end. Premium income represents actual and estimated revenue generated from
self-assessments from defined benefit pension plans as required by Title IV of ERISA (see Note 9).
        Capitalized Assets: Capitalized assets include furniture and fixtures, EDP equipment and
internal-use software. Beginning in fiscal year 2004, PBGC, in compliance with AICPA Statement Of
Position 98-1 and FASB EITF 97-13 began to account for the cost of computer software developed for
internal use. This includes costs for internally developed software incurred during the application
development stage (system design including software configuration and software interface, coding,
testing including parallel processing phase). These costs are shown net of depreciation and
amortization.
        Present Value of Future Benefits (PVFB): The PVFB is the estimated liability for future
pension benefits that PBGC is or will be obligated to pay the participants of trusteed plans and the net
liability for plans pending termination and trusteeship. The PVFB liability (including trusteed plans as
well as plans pending termination and trusteeship) is stated as the actuarial present value of estimated
future benefits less the present value of estimated recoveries from sponsors and members of their
controlled group and the assets of plans pending termination and trusteeship as of the date of the
financial statements. PBGC also includes the estimated liabilities attributable to plans classified as
probable terminations as a separate line item in the PVFB (net of estimated recoveries and plan assets).
PBGC uses assumptions to adjust the value of those future payments to reflect the time value of money
(by discounting) and the probability of payment (by means of decrements, such as for death or
retirement). PBGC also includes anticipated expenses to settle the benefit obligation in the
determination of the PVFB. PBGC’s benefit payments to participants reduces the PVFB liability.
       The values of the PVFB are particularly sensitive to changes in underlying estimates and
assumptions. These estimates and assumptions could change and the impact of these changes may be
material to PBGC’s financial statements (see Note 4).
       (1)	 Trusteed Plans--represents the present value of future benefit payments less the present
             value of expected recoveries (for which a settlement agreement has not been reached with
             sponsors and members of their controlled group) for plans that have terminated and been
             trusteed by PBGC prior to fiscal year-end. Assets are shown separately from liabilities for
             trusteed plans.
       (2) 	 Pending Termination and Trusteeship--represents the present value of future benefit
             payments less the plans’ net assets (at fair value) anticipated to be received and the present
             value of expected recoveries (for which a settlement agreement has not been reached with
             sponsors and members of their controlled group) for plans for which termination action
             has been initiated and/or completed prior to fiscal year-end. Unlike trusteed plans, the
             liability for plans pending termination and trusteeship is shown net of plan assets.
       (3)	 Settlements and Judgments--represents estimated liabilities related to settled litigation.
       (4)	 Net Claims for Probable Terminations-- In accordance with Statement of Financial
             Accounting Standards No. 5 (Accounting for Contingencies) PBGC recognizes net claims
             for probable terminations which represent PBGC’s best estimate of the losses, net of plan
             assets and the present value of expected recoveries (from sponsors and member
             controlled group) for plans that are likely to terminate within twelve months of the
             financial statement issuance date. These estimated losses are based on conditions that
             existed as of PBGC’s fiscal year-end. Management believes it is likely that one or more
             events subsequent to PBGC’s fiscal year-end will occur, confirming the loss. Criteria used
             for classifying a specific plan as a probable termination include, but are not limited to, one
             or more of the following conditions: the plan sponsor is in liquidation or comparable
             state insolvency proceeding with no known solvent controlled group member; sponsor
             has filed or intends to file for distress plan termination; or PBGC seeks involuntary plan
             termination. In addition, management takes into account other economic events and
             factors in making judgments regarding the classification of a plan as a probable
             termination. These events and factors may include, but are not limited to: the plan
     sponsor is in bankruptcy or has indicated that a bankruptcy filing is imminent; the plan
     sponsor has stated that plan termination is likely; the plan sponsor has received a going
     concern opinion from its independent auditors; or the plan sponsor is in default under
     existing credit agreement(s).
     In addition, a reserve for large unidentified probable losses is recorded based on actual
     PBGC experience, as well as the historical industry bond default rates. This reserve has
     been developed by segregating plan sponsors listed on the contingency list, with plan
     funding ratios less than or equal to 80%, with aggregate underfunding equal to or greater
     than $50 million into risk bands which reflect their level of credit risk. A reserve for small
     unidentified probable losses and incurred but not reported (IBNR) claims is also recorded
     based on an actuarial loss development methodology (triangulation method) (see Note 4).
(5)	 PBGC identifies certain plans as high risk if the plan sponsor meets one or more criteria
     that include, but are not limited to, the following conditions: sponsor is in Chapter 11
     proceedings; sponsor received a minimum funding waiver within the past five years;
     sponsor granted security to an unsecured creditor as part of a renegotiation of debt within
     the past two years; sponsor is known to have been in default on existing debt within the
     past two years (regardless of whether it received a waiver of default); or sponsor’s
     unsecured debt is rated CCC+/Caa1 or lower by S&P or Moody’s respectively. PBGC
     specifically reviews each plan identified as high risk and classifies those plans as probable
     if, based on available evidence, PBGC concludes that plan termination is likely.
     Otherwise, high risk plans are classified as reasonably possible.
(6)	 In accordance with Statement of Financial Accounting Standards No. 5 (Accounting for
     Contingencies), PBGC’s exposure to losses from plans of companies that are classified as
     reasonably possible is disclosed in footnotes. In order for a plan sponsor to be
     specifically classified as reasonably possible, it must first have $5 million or more of
     underfunding, as well as meet additional criteria. Criteria used for classifying a company
     as reasonably possible include, but are not limited to, one or more of the following
     conditions: the plan sponsor is in Chapter 11 reorganization; funding waiver pending or
     outstanding with the Internal Revenue Service (IRS); sponsor missed minimum funding
     contribution; sponsor’s bond rating is below-investment-grade for Standard & Poor’s
                (BB+) or Moody’s (Ba1); sponsor has no bond rating but unsecured debt is below
                investment grade; or sponsor has no bond rating but the ratio of long-term debt plus
                unfunded benefit liability to market value of shares is 1.5 or greater (see Note 7).
        Present Value of Nonrecoverable Future Financial Assistance: In accordance with Title
IV of ERISA, PBGC provides financial assistance to multiemployer plans, in the form of loans, to
enable the plans to pay guaranteed benefits to participants and reasonable administrative expenses.
These loans, issued in exchange for interest-bearing promissory notes, constitute an obligation of each
plan.
        The present value of nonrecoverable future financial assistance represents the estimated
nonrecoverable payments to be provided by PBGC in the future to multiemployer plans that will not
be able to meet their benefit obligations. The present value of nonrecoverable future financial
assistance is based on the difference between the present value of future guaranteed benefits and
expenses and the market value of plan assets, including the present value of future amounts expected to
be paid by employers, for those plans that are expected to require future assistance. The amount
reflects the rates at which, in the opinion of management, these liabilities (net of expenses) could be
settled in the market for single-premium nonparticipating group annuities issued by private insurers
(see Note 5).
        A liability for a particular plan is included in the Present Value of Nonrecoverable Future
Financial Assistance when it is determined that the plan is currently, or will likely become in the future,
insolvent and will require assistance to pay the participants their guaranteed benefit. Determining
insolvency requires considering several complex factors, such as an estimate of future cash flows, future
mortality rates, and age of participants not in pay status.
        Other Expenses: These expenses represent an estimate of the net amount of receivables
deemed to be uncollectible during the period. The estimate is based on the most recent status of the
debtor (e.g., sponsor), the age of the receivables and other factors that indicate the element of
uncollectibility in the receivables outstanding.
        Losses from Completed and Probable Terminations: Amounts reported as losses from
completed and probable terminations represent the difference as of the actual or expected date of plan
termination (DOPT) between the present value of future benefits (including amounts owed under
Section 4022(c) of ERISA) assumed, or expected to be assumed, by PBGC, less related plan assets and
the present value of expected recoveries from sponsors and members of their controlled group (see
Note 10). When a plan terminates, the previously recorded probable Net claim is reversed and newly
estimated DOPT plan assets, recoveries and PVFB are netted and reported on the line PVFB - Plans
pending termination and trusteeship (this value is usually different than the amount previously
reported), with any change in the estimate being recorded in the Statements of Operations and Changes
in Position. In addition, the plan’s net income from date of plan termination to the beginning of
PBGC’s fiscal year is included as a component of losses from completed and probable terminations for
plans with termination dates prior to the year in which they were added to PBGC’s inventory of
terminated plans.
        Actuarial Adjustments and Charges (Credits): PBGC classifies actuarial adjustments related
to changes in method and the effect of experience as underwriting activity; actuarial adjustments are the
result of the movement of plans from one valuation methodology to another (e.g., nonseriatim to
seriatim) and of new data (e.g., deaths, revised participant data). Actuarial charges (credits) related to
changes in interest rates and passage of time are classified as financial activity. These adjustments and
charges (credits) represent the change in the PVFB that results from applying actuarial assumptions in
the calculation of future benefit liabilities (see Note 4).
        Depreciation and Amortization: PBGC calculates depreciation on the straight-line basis over
estimated useful lives of 5 years for equipment and 10 years for furniture and fixtures. PBGC
calculates amortization for capitalized software, which includes certain costs incurred for purchasing
and developing software for internal use, on the straight-line basis over estimated useful lives not to
exceed 5 years, commencing on the date that the Corporation determines that the internal-use software
is implemented. Routine maintenance and leasehold improvements (the amounts of which are not
material) are charged to operations as incurred.
        Reclassification: Certain amounts in the 2004 financial statements have been reclassified
to be consistent with the 2005 presentation.


Note 3 -- Investments
        Premium receipts are invested in U.S. Treasury securities.
The trust funds include assets PBGC acquires or expects to acquire with respect to terminated plans
(e.g., recoveries from sponsors) and investment income thereon. These assets generally are held by
custodian banks. The basis and market value of the investments by type are detailed below as well as
related investment profile data. The basis indicated is cost of the asset if acquired after the date of plan
           termination or the market value at date of plan termination if the asset was acquired as a result of a
           plan’s termination. PBGC marks the plan’s assets to market and any increase or decrease in the market
           value of a plan’s assets occurring after the date on which the plan is terminated must, by law, be
           credited to or suffered by PBGC. As the table below illustrates, the market value of investments of the
           single-employer program increased significantly from September 30, 2004, to September 30, 2005. This
           was primarily due to (1) a large amount of cash available at September 30, 2004, which was deployed to
           the new fixed income managers early in FY 2005 and (2) significant inflow of assets from trusteed plans
           in 2005. This resulted in a significant increase in income from fixed income securities. Note 11
           provides the components of investment income.



INVESTMENTS OF SINGLE-EMPLOYER REVOLVING FUNDS AND SINGLE-EMPLOYER TRUSTEED PLANS

                                                                                  September 30,                             September 30,
                                                                                       2005                                     2004
                                                                                            Market                                    Market
(Dollars in millions)                                                            Basis       Value                        Basis        Value
Fixed maturity securities:
  U.S. Government securities                                                  $21,562         $21,417                   $15,095         $15,667
  Commercial paper                                                                336             336                       188             188
 Asset backed securities                                                        3,286           3,265                       399             396
 Corporate and other bonds                                                      8,194           8,142                     1,050           1,082
 Subtotal                                                                      33,378          33,160                    16,732          17,333
Equity securities                                                               8,565          12,284                     7,536          11,115
Real estate and real estate investment trusts                                      33              29                        83              91
Insurance contracts and other investments                                          32             25                         38              23
Total *                                                                       $42,008        $45,498                    $24,389         $28,562

* This includes securities on loan at September 30, 2005, and September 30, 2004, with a market value of $6.769 billion and $622 million, respectively.



INVESTMENTS OF MULTIEMPLOYER REVOLVING FUNDS AND MULTIEMPLOYER TRUSTEED PLANS

                                                                                 September 30,                               September 30,
                                                                                     2005                                        2004
                                                                                          Market                                       Market
(Dollars in millions)                                                         Basis        Value                          Basis         Value
Fixed maturity securities:
  U.S. Government securities                                                 $1,151           $1,134                     $1,006           $1,042
Equity securities                                                                 0                0                          0                1
Total                                                                        $1,151           $1,134                     $1,006           $1,043
                      INVESTMENT PROFILE
                                                                    Septe mbe r 30,
                                                                 2005            2004
                      Fixed-Inco me Assets
                      Average Quality                          AAA            AAA
                      Average Maturity (years)                 16.6           15.2
                      Duration (years)                         10.4            9.1
                      Yield to Maturity (%)                     4.8            4.4

                      Equity Assets
                      Average Price/Earnings Ratio              20.2          20.4
                      Dividend Yield (%)                         1.6           1.7
                      Beta                                       1.03          0.98




In addition, PBGC’s trusteed liability return was 2.6% and the duration (years) of these liabilities was
9.93 in 2005.


Derivative Instruments: Derivatives are accounted for at market value in accordance with
Statement of Financial Accounting Standards No. 133, as amended. Derivatives are marked to market
with changes in value reported within financial income. These instruments are used to mitigate risk
and/or enhance PBGC’s investment returns. The standard requires disclosure of fair value of these
instruments. During fiscal years 2004 and 2005, PBGC invested in investment products, which used
various U.S. and non-U.S. derivative instruments including but not limited to: equity index futures
contracts, money market and government bond futures contracts, swap contracts, swaption contracts,
stock warrants and rights, debt option contracts and foreign currency forward and option contracts.
Some of these derivatives are traded on organized exchanges and thus bear minimal credit risk. The
counterparties to PBGC’s non-exchange-traded derivative contracts are major financial institutions.
PBGC has never experienced non-performance by any of its counterparties.
        Futures are exchange-traded contracts specifying a future date of delivery or receipt of a certain
amount of a specific tangible or intangible product. The futures exchange’s clearinghouses clear, settle,
and guarantee transactions occurring through its facilities. Institutional investors hold these future
contracts on behalf of PBGC as efficient and liquid substitutes for purchases and sales of financial
market indices and securities. Open futures positions are marked to market daily. An initial margin of
generally 1 to 6 percent is maintained with the broker in Treasury bills or similar instruments. In
addition, futures contracts require daily settlement of variation margin resulting from the marks to
market. In periods of extreme volatility, margin calls may create a high liquidity demand on the
underlying portfolio. To mitigate this, PBGC maintains adequate liquidity in its portfolio to meet these
margin calls.
        A swap is an agreement between two parties to exchange different financial returns on a notional
investment amount. For example, an interest rate swap involves exchanges of fixed rate and floating
rate interest. There is no exchange of the underlying principal. During fiscal years 2004 and 2005, gains
and losses from settled margin calls (e.g., from futures, swaps, and options) are reported in Investment
income on the Statement of Operations and Changes in Net Position.
        PBGC’s investment managers employ a variety of derivative investment strategies including:
investment of foreign currency forward and option contracts used to adjust overall currency exposure to
reflect the investment views of the portfolio managers regarding relationships between currencies;
investment in swap and swaption contracts to adjust exposure to interest rates, fixed income securities
exposure, and to generate income based on the investment views of the portfolio managers regarding
interest rates, indices and debt issues; and investment in stock warrants and rights that allow the
purchase of securities at a stipulated price within a specified time limit. Derivative instruments are not
used to create leverage in PBGC’s investment portfolio.
        The following table summarizes the notional amounts and fair market values of derivative
financial instruments held or issued for trading as of September 30, 2005, and September 30, 2004.
                                                                9/30/05                   9/30/04
INTEREST RATE CONTRACTS (IRC)                              Notional   FMV            Notional FMV
(Dollars in millions)

Forwards                                                       $ 149      $    0        $    20      $ 0

Futures                                                         5,098          6        2,254        15
  Contracts in a receivable position                            1,645         15        1,807        16
  Contracts in a payable position                               3,453         (9)         447        (1)

Swap Agreements                                                4,385          38            223       5

Options purchased (long)                                            2         0               0       0

Options written (sold short)                                       80         0             135      (1)

                                                                9/30/05                  9/30/04
FOREIGN EXCHANGE CONTRACTS (FEC)                          Notional    FMV            Notional FMV

Forwards                                                      $1,129     $ (3)         $ 322        $ 2

Options purchased (long)                                            0         0              1        0




         Security Lending: PBGC participates in a security lending program administered by its
 custodian bank. The custodian bank requires collateral that equals 102 percent to 105 percent of the
 securities lent. The collateral is held by the custodian bank. In addition to the lending program
 managed by the custodian bank, some of PBGC’s investment managers are authorized to invest in
 repurchase agreements and reverse repurchase agreements. The manager either receives cash as
 collateral or pays cash out to be used as collateral. Any cash collateral received is invested. The total
 value of securities on loan at September 30, 2005, and September 30, 2004, was $6.769 billion and
 $622 million, respectively. Securities on loan have increased significantly since September 30, 2004, due
 to an ongoing demand for fixed-income securities to lend and the new capacity to lend such securities
 provided by approximately $12.833 billion of new fixed-income securities as of September 30, 2005.
         The amount of cash collateral received for these loaned securities was $6.939 billion at
 September 30, 2005, and $637 million at September 30, 2004. These amounts are recorded in cash and
 are offset with a corresponding liability. PBGC had earned income from securities lending of $4.0
 million as of September 30, 2005 and $1.1 million as of September 30, 2004.
        Of the $6.769 billion market value of securities on loan at September 30, 2005, approximately
92% are invested in U.S. government securities and 8% in U.S. corporate securities. PBGC had
available approximately $15.960 billion of securities available for securities lending at September 30,
2005.


Note 4 -- Present Value of Future Benefits
        The following table summarizes the actuarial adjustments, charges and credits that explain how
the Corporation’s single-employer program liability for the present value of future benefits changed for
the years ended September 30, 2005 and 2004.
        For FY 2005, PBGC used a 25-year select interest factor of 5.2% followed by an ultimate factor
of 4.5% for the remaining years. In FY 2004, PBGC used a 25-year select interest factor of 4.8%
followed by an ultimate factor of 5.0% for the remaining years. These factors were determined to be
those needed, given the mortality assumptions, to continue to match the survey of annuity prices
provided by the American Council of Life Insurers (ACLI). Both the interest factor and the length of the
select period may vary to produce the best fit with these prices. The prices reflect rates at which, in the
opinion of management, the liabilities (net of administrative expenses) could be settled in the market at
September 30, for the respective year, for single-premium nonparticipating group annuities issued by
private insurers. Many factors, including Federal Reserve policy, may impact these rates.
        For September 30, 2005, PBGC used the 1994 Group Annuity Mortality (GAM) 94 Static Table
(with margins), set forward one year and projected 22 years to 2016 using Scale AA. For September 30,
2004, PBGC used the same table, set forward one year, projected 20 years to 2014 using Scale AA. The
number of years that PBGC projects the mortality table reflects the number of years from the 1994 base
year of the table to the end of the fiscal year (11 years in 2005 versus 10 years in 2004) plus PBGC’s
calculated duration of its liabilities (11 years in 2005 versus 10 years in 2004). PBGC’s procedure is
based on the procedures recommended by the Society of Actuaries UP-94 Task Force (which developed
the GAM94 table) for taking into account future mortality improvements.
        PBGC continues to utilize the results of its 2004 mortality study. The study showed that the
mortality assumptions used in FY 2003 reflected higher mortality than was realized in PBGC’s seriatim
population. Therefore, PBGC adopted a base mortality table (i.e., GAM94 set forward one year instead
of GAM94 set forward two years) that better reflects past mortality experience. The ACLI survey of
annuity prices, when combined with the mortality table, provides the basis for determining the interest
factors used in calculating the PVFB. The insurance annuity prices, when combined with the stronger
mortality table, result in a higher interest factor. The 2004 increase in the liability due to the change in
the mortality table is included in the actuarial adjustments. There was a compensating decrease in the
actuarial charge due to the change in interest rates.
        The reserve for administrative expenses in the 2005 and 2004 valuations were assumed to be
1.18 percent of benefit liabilities plus additional reserves for cases whose plan asset determinations,
participant database audits and actuarial valuations were not yet complete. The expense assumption was
based on a study performed for PBGC in 2000 by a major accounting firm. The factors to determine
the additional reserves were based on case size, number of participants and time since trusteeship.
        The present values of future benefits for trusteed multiemployer plans for 2005 and 2004 reflect
the payment of assistance and the changes in interest and mortality assumptions, passage of time and the
effect of experience.
        The resulting liability represents PBGC’s best estimate of the measure of anticipated experience
under these programs.
RECONCILIATION OF TH E PRESENT VALUE OF FUTURE BENEFITS FOR TH E YEARS ENDED SEPTE MBER 30, 2005 AND 2004
                                                                             September 30,

(Dollars in millions)                                                                                             2005                                                2004
Present value of future benefits, at beginning
       of year -- Single-Employer, net                                                                                 $ 60,836                                              $44,641
  Estimated recoveries, prior year                                                                                          364                                                   68
  Assets of terminated plans pending trusteeship, net, prior year                                                           678                                                  172
  Present value of future benefits at beginning of year, gross                                                           61,878                                               44,881
  Settlements and judgments, prior year                                                                                     (65)                                                 (67)
  Net claims for probable terminations, prior year                                                                      (16,926)                                              (5,207)
  Actuarial adjustments -- underwriting:
    Changes in method and assumptions                                                                    $        17                                         $    1,340
    Effect of experience                                                                                         203                                                185
    Total actuarial adjustments -- underwriting                                                                  220                                              1,525
  Actuarial charges -- financial:
    Passage of time                                                                                           2,618                                                1,881
    Change in interest rates                                                                                 (2,348)                                              (1,619)
    Total actuarial charges -- financial                                                                        270                                                  262
  Total actuarial charges, current year                                                                                    490                                                 1,787
  Terminations:
    Current year                                                                                             21,191                                               6,926
    Changes in prior year                                                                                      (292)                                               (427)
    Total terminations                                                                                                   20,899                                                6,499
  Benefit payments, current year*                                                                                        (3,685)                                              (3,006)
  Estimated recoveries, current year                                                                                       (343)                                                (364)
  Assets of terminated plans pending trusteeship, net, current year                                                      (3,039)                                                (678)
  Settlements and judgments, current year                                                                                    58                                                   65
  Net claims for probable terminations:
    Future benefits **                                                                                     23,918                                                 30,953
    Estimated plan assets and recoveries from sponsors                                                    (13,448)                                               (14,027)
    Total net claims, current year                                                                                       10,470                                               16,926
Present value of future benefits,
  at end of year -- Single-Employer, net                                                                                 69,737                                               60,836
Presen t value of future benefits,
  at end of year -- Multiemployer                                                                                             2                                                    3
Total present value of future benefits, at end of year, net                                                            $ 69,739                                              $60,839

*	           The benefit payments of $3,685 million and $3,006 million include $384 million in 2005 and $119 million in 2004 for benefits paid from plan assets by plans prior
             to trusteeship.
**	          The future benefits for probable terminations of $23,918 million and $30,953 million for fiscal years 2005 and 2004, respectively, include $137 million and
             $431 million, respectively, in net claims (future benefits less estimated plan assets and recoveries) for probable terminations not specifically identified and $23,781
             million a nd $3 0,522 m illion, respec tively, in ne t claims fo r specifically id entified p robab les.


             The following table details the assets that make up single-employer terminated plans pending termination
             and trusteeship:

ASSETS OF SINGLE-EMPLOYER PLANS PENDING TERMINATION AND TRUSTEESHIP, NET

                                                                                               September 30,                                 September 30,
                                                                                                   2005                                          2004
                                                                                                        Market                                         Market
(Dollars in millions)                                                                        Basis      Value                             Basis         Value

U.S. Government securities                                                               $     0             $    0                       $  3              $   3
Corporate and other bonds                                                                  1,043              1,053                        265                281
Equity securities                                                                          1,968              1,992                        364                382
Insurance contracts                                                                            2                  2                          2                  2
Other                                                                                         (7)                (8)                        10                 10
Total                                                                                     $3,006             $3,039                       $644               $678



                         Net Claims for Probable Terminations: Factors that are presently not fully determinable may
             be responsible for these claim estimates differing from actual experience. Included in net claims for
             probable terminations is a provision for future benefit liabilities for plans not specifically identified.
                         The values recorded in the following reconciliation table have been adjusted to the expected dates
             of termination.
RECONCILIATION OF NET CLAIMS FOR PROBABLE TERMINATIONS
                                                                                                September 30,
(Dollars in millions)                                                              2005                             2004
Net claims for probable terminations, at beginning of year                                $16,926                          $ 5,207
Change in IBNR                                                                                                                 (41)
New claims                                                              $ 4,738                             $14,407
Actual terminations                                                     (10,637)                             (3,258)
Deleted probables                                                           (83)                                (243)
Change in benefit liabilities                                              (205)                                 929
Change in plan assets                                                      (269)                                 (75)
Loss (credit) on probables                                                                 (6,456)                          11,760
Net claims for probable terminations, at end of year                                      $10,470                          $16,926




             The following table itemizes the probable exposure by industry:

PROBABLES EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)

(Dollars in millions)                                        FY 2005                FY 2004
Transportation, Communication and Utilities                   $ 9,570                $15,057
Manufacturing                                                     612                    630
Agriculture, Mining, and Construction                              37                      -
Wholesale and Retail Trade                                         18                    219
Finance, Insurance, and Real Estate                                 -                    569
Services/Other                                                    233                    451
Total                                                        $10,470                 $16,926


             For further detail, see Note 2 subpoint (4)



                        The following table shows what has happened to plans classified as
             probables. This table does not capture or include those plans that were not
             previously classified as probable before they terminated.


PROBABLES EXPERIENCE
As Initially Recorded Beginning in 1987

(Dollars in millions)                                                           Status of Probables from 1987-2004 at September 30, 2005
                                                                               Number of         Percent of          Net      Percent of
Beginning in 1987, number of plans reported as Probable:                             Plans             Plans      Claim        Net Claim
  Probables terminated                                                                 271              79%     $21,788              76%
  Probables not yet terminated or deleted                                                6               2         5,774             20
  Probables deleted                                                                     67              19         1,105              4
  Total                                                                                344            100%      $28,667             100%
Note 5 -- Multiemployer Financial Assistance
        PBGC provides financial assistance to multiemployer defined benefit pension plans in the
form of loans. An allowance is set up to the extent that repayment of these loans is not expected.
               NOTES RECEIVABLE 

               MULTIEMPLOYER FINANCIAL ASSISTANCE

                                                                             September 30,
           (Dollars in millions)                                    2005                     2004
           Gross balance at beginning of year                       $ 71                     $ 61
           Financial assistance payments-current year                14                        10
           Subtotal                                                  85                        71
           Allowance for uncollectible amounts                      (85)                      (71)
           Net balance at end of year                               $ 0                      $ 0



        The losses from financial assistance reflected in the Statements of Operations and Changes
in Net Position include period changes in the estimated present value of nonrecoverable future
financial assistance.

                 PRESENT VALUE OF NONRECOVERABLE FUTURE FINANCIAL
                 ASSISTANCE AND LOSSES FROM FINANCIAL ASSISTANCE
                ________________________________________________________________________

                                                                             September 30,
             (Dollars in millions)                                  2005                 2004
             Balance at beginning of year                          $1,295              $1,250
             Changes in allowance:
              Losses from financial assistance                       204                     55
               Financial assistance granted
                 (previously accrued)                                 (14)                   (10)
             Balance at end of year                                $1,485              $1,295




Note 6 -- Accounts Payable and Accrued Expenses
        The following table itemizes accounts payable and accrued expenses reported in the
Statements of Financial Condition:

                 ACCOUNTS PAYABLE AND ACCRUED EXPENSES
                                                                              September 30,
             (Dollars in millions)                                     2005                   2004


             Annual leave                                                  $ 5                 $ 5
             Other payables and accrued expenses                             65                   66
             Accounts payable and accrued expenses                         $70                 $71
Note 7 -- Contingencies

        Single-employer plans sponsored by companies whose credit quality is below investment
grade pose a greater risk of being terminated. In addition, there are some multiemployer plans that
may require future financial assistance. The amounts disclosed below represent the Corporation’s
best estimates of the possible losses in these plans given the inherent uncertainties about these plans.
        In accordance with Statement of Financial Accounting Standards No. 5, PBGC classified a
number of these companies as reasonably possible terminations as the sponsors’ financial condition
and other factors did not indicate that termination of their plans was likely as of year-end. The best
estimate of aggregate unfunded vested benefits exposure to PBGC for the companies’ single-
employer plans classified as reasonably possible as of September 30, 2005, was $108 billion.
        The estimated unfunded vested benefits exposure has been calculated as of December 31,
2004. PBGC calculated this estimate as in previous years by using data obtained from filings and
submissions with the government and from corporate annual reports for fiscal years ending in
calendar 2004. The Corporation adjusted the value reported for liabilities to the December 31, 2004,
PBGC select interest rate of 3.9%. When available, data were adjusted to a consistent set of
mortality assumptions. The underfunding associated with these sponsors’ plans would generally
tend to be greater at September 30, 2005, because of the economic conditions that existed between
December 31, 2004, and September 30, 2005. The Corporation did not adjust the estimate for
events that occurred between December 31, 2004, and September 30, 2005.
             The following table itemizes the reasonably possible exposure by industry:
REASONABLY POSSIBLE EXPOSURE BY INDUSTRY (PRINCIPAL CATEGORIES)
(Dollars in millions)                               FY 2005          FY 2004
Manufacturing                                      $ 71,332          $51,325
Transportation, Communication and Utilities          17,567           26,985
Services/Other                                        8,623            8,725
Wholesale and Retail Trade                            7,296            5,674
Agriculture, Mining and Construction                  1,731            1,866
Finance, Insurance, and Real Estate                   1,490            1,098
Total                                              $108,039          $95,673


FY 2004 amounts were reclassified to conform to the NAIC classification codes

             PBGC included amounts in the liability for the present value of nonrecoverable future
financial assistance (see Note 5) for multiemployer plans that PBGC estimated may require future
financial assistance. In addition, PBGC currently estimates that it is reasonably possible that other
multiemployer plans may require future financial assistance in the amount of $418 million.
             The Corporation calculated the future financial assistance liability for each multiemployer
plan identified as probable (see Note 5), or reasonably possible as the present value of guaranteed
future benefit and expense payments net of any future contributions or withdrawal liability payments
as of the later of September 30, 2005, or the projected (or actual, if known) date of plan insolvency,
discounted back to September 30, 2005. The Corporation’s identification of plans that are likely to
require such assistance and estimation of related amounts required consideration of many complex
factors, such as an estimate of future cash flows, future mortality rates, and age of participants not in
pay status. These factors are affected by future events, including actions by plans and their
sponsors, most of which are beyond the Corporation’s control.
             PBGC used select and ultimate interest rate assumptions of 5.2% for the first 25 years after
the valuation date and 4.5% thereafter. The Corporation also used the 1994 Group Annuity
Mortality Static Table (with margins), set forward one year, projected 22 years to 2016 using
Scale AA.

Note 8 -- Commitments
             PBGC leases its office facility under a new commitment that began on January 1, 2005, and
expires December 10, 2018. The new lease agreement was entered into because of the need for
additional office space. This lease provides for periodic rate increases based on increases in operating
costs and real estate taxes over a base amount. In addition, PBGC is leasing space for field benefit
administrators. These leases began in 1996 and expire in 2013. The minimum future lease payments for
office facilities having noncancellable terms in excess of one year as of September 30, 2005, are as
follows:
COMMITMENTS: FUTURE LEASE PAYMENTS
(Dollars in millions)
Years Ending                                                        Operating
Septe mbe r 30,                                                       Leases
2006                                                                  $ 18.7
2007                                                                    18.7
2008                                                                    18.0
2009                                                                    17.5
2010                                                                    17.3
Thereafter                                                             118.6
Minimum lease paym ents                                               $208.8



           Lease expenses were $18.0 million in 2005 and $15.6 million in 2004.

Note 9 -- Premiums
           For both the single-employer and multiemployer programs, ERISA provides that PBGC shall
continue to guarantee basic benefits despite the failure of a plan administrator to pay premiums when
due. PBGC assesses interest and penalties on the unpaid portion of or underpayment of premiums.
Interest continues to accrue until the premium and the interest due are paid. The amount of penalty that
can be levied is capped at 100 percent of the premium late payment or underpayment. Annual flat-rate
premiums for the single-employer program are $19 per participant. Underfunded single-employer plans
also pay variable-rate premiums of $9 per $1,000 of underfunding if not exempt from the variable-rate
premiums. Annual flat-rate premiums for the multiemployer program are $2.60 per participant and there
are no variable-rate premiums. PBGC recorded premium income, excluding interest and penalty, of
approximately $670 million in flat-rate premiums and $787 million in variable-rate premiums for fiscal
year 2005, and approximately $677 million in flat-rate premiums and $804 million in variable-rate
premiums for fiscal year 2004.
  Note 10 -- Losses from Completed and Probable Terminations
               Amounts reported as losses are the present value of future benefits less related plan assets and
  the present value of expected recoveries from sponsors. The following table details the components
  that make up the losses:

  LOSSES FROM COMPLETED AND PROBABLE TERMINATIONS -- SINGLE-EMPLOYER PROGRAM
                                                                                  For the Years Ended September 30,                           

                                                               2005                                                      2004 

                                                       Changes in                                                       Changes in
                                             New       Prior Year                                         New           Prior Year
  (Dollars in millions)                  Terminations Terminations                   Total            Terminations     Terminations                Total
  Present value of future benefits              $21,191               $(292)       $20,899                   $6,926           $(427)              $ 6,499
  Less plan assets                                  10,516                   0       10,516                   3,137               125               3,262
  Plan asset insufficiency                          10,675             (292)         10,383                   3,789               (552)             3,237
  Less estimated recoveries                             9                  (37)         (28)                    280                11                291
  Subtotal                                     $10,666                $(255)         10,411                  $3,509           $(563)                2,946
  Settlements and judgments                                                              (1)                                                           1
  Loss (credit) on probables                                                         (6,456)*                                                      11,760 *
  Total                                                                             $ 3,954                                                       $14,707
  * See Note 4



  Note 11 -- Financial Income
      The following table details the combined financial income by type of investment for both the single-
  employer and multiemployer programs:


  Investment Income - Single-Employer and Multiemployer Programs

                                     Single-Employer         Multiemployer           Memorandum      Single-Employer       Multiemployer              Memorandum
                                          Program              Program                  Total            Program             Program                    Total
(Dollars in millions)                 Sept 30, 2005          Sept 30, 2005           Sept 30, 2005     Sept 30, 2004        Sept 30, 2004             Sept 30, 2004

Fixed-income securities:
  Interest earned                         $1,270                  $ 53                  $1,323              $ 858                    $50              $ 908
  Realized gain (loss)                      1,361                     82                 1,443                (18)                      (2)                 (20)
  Unrealized gain (loss)                    (876)                  (56)                   (932)               143                         6                 149
  Total fixed-income securities            1,755                      79                 1,834                983                     54               1,037
Equity securities:
  Dividends earned                            81                       0                       81             104                         0                 104
  Realized gain                            1,540                       0                 1,540              1,044                         0            1,044
  Unrealized gain                            493                       0                     493            1,048                         0            1,048
  Total equity securities                   2,114                      0                  2,114             2,196                         0            2,196
Other income                                  28                       0                       28              18                         0                  18
Total investment income                   $3,897                  $ 79                  $3,976             $3,197                    $54              $3,251
Note 12 -- Employee Benefit Plans
                All permanent full-time and part-time PBGC employees are covered by the Civil Service
Retirement System (CSRS) or the Federal Employees Retirement System (FERS). Full-time and part-
time employees with less than five years service under CSRS and hired after December 31, 1983, are
automatically covered by both Social Security and FERS. Employees hired before January 1, 1984,
participate in CSRS unless they elected and qualified to transfer to FERS.
                The Corporation’s contribution to the CSRS plan for both 2005 and 2004 was 7.0
percent of base pay for those employees covered by that system. For those employees covered by
FERS, the Corporation’s contribution was 10.7 percent of base pay for both 2005 and 2004. In
addition, for FERS-covered employees, PBGC automatically contributes 1 percent of base pay to the
employee’s Thrift Savings account, matches the first 3 percent contributed by the employee and matches
one-half of the next 2 percent contributed by the employee. Total retirement plan expenses amounted
to $11 million in 2005 and $10 million in 2004.
                These financial statements do not reflect CSRS or FERS assets or accumulated plan
benefits applicable to PBGC employees. These amounts are reported by the U.S. Office of Personnel
Management (OPM) and are not allocated to the individual employers. OPM accounts for federal
health and life insurance programs for those eligible retired PBGC employees who had selected federal
government-sponsored plans. PBGC does not offer other supplemental health and life insurance
benefits to its employees.


Note 13 -- Cash Flows
        The following two tables, one for Sales and one for Purchases, provide further details on cash
flows from investment activity. Sales and purchases of investments are driven by the level of newly
trusteed plans, the unique investment strategies implemented by PBGC’s investment managers, and the
varying capital market conditions in which they invest during the year. Several investment strategies in
use in 2005 involved higher volume short term investments, particularly in the fixed income area, as
shown in the Investing Activities table below. These cash flow numbers can vary significantly from year
to year based on the fluctuation in these three variables.
INVESTING ACTIVITIES

                                                  September 30,
(Dollars in millions)                      2005                   2004

Proceeds from sales of investments:
   Fixed maturity securities             $125,646 
                $37,929
   Equity securities                         8,515 
                 4,677
   Other/uncategorized                       2,395 
                 2,993
Total                                    $136,556                  $45,599


Payments for purchases of investments:
   Fixed maturity securities             $(139,681)               $(38,872)
   Equity securities                        (7,022)                 (2,013)
   Other/uncategorized                       5,156                       46
Total                                    $(141,547)               $(40,839)
             The following is a reconciliation between the net income as reported in the Statements of Operations
             and Changes in Net Position and net cash provided by operating activities as reported in the Statements
             of Cash Flows.




RECONCILIATION OF NET INCOME TO NET CASH PROVIDED BY OPERATING ACTIVITIES


                                                                    Single-Employer          Multiemployer               Memorandum

                                                                           Program                 Program                      Total
                                                                     September 30,            September 30,               September 30,
(Dollars in millions)                                              2005          2004      2005          2004            2005            2004
Net income (loss)                                            $     529       $(12,067)     $(99)             $25    $    430      $(12,042)
Adjustments to reconcile net income to net cash
provided by operating activities:
   Net (appreciation) decline in fair value of investments       (2,481)       (2,160)      (26)              (3)   (2,507)         (2,163)
    Net gain of plans pending termination and trusteeship           46            (84)        0               0           46              (84)
    Losses on completed and probable terminations                3,954         14,707         0               0         3,954       14,707
    Actuarial charges                                              490          1,787         0               1          490            1,788
    Benefit payments - trusteed plans                            (3,301)       (2,888)       (1)              (1)   (3,302)         (2,889)
    Settlements and judgments                                        (5)             (7)      0               0           (5)              (7)
    Cash received from plans upon trusteeship                      218               51       0               0          218              51
    Receipts from sponsors/non-sponsors                            216               84       0               0          216              84
    Amortization of discounts/premiums                             128           128         11              11          139             139
    Changes in assets and liabilities, net of effects
       of trusteed and pending plans:
          (Increase) decrease in receivables                         31          (311)        0               3           31            (308)
           Increase in present value of nonrecoverable
            future financial assistance                                                     190              45          190              45
          Increase (decrease) in unearned premiums                  (13)             16       0                0         (13)             16
          Increase (decrease) in accounts payable                    (1)             12       0               0           (1)             12
Net cash provided (used) by operating activities             $ (189)          $ (732)      $ 75              $81    $ (114)        $ (651)
Note 14 -- Litigation
     PBGC was involved in numerous litigation matters in 2005. At the end of the fiscal year, PBGC had
383 open, active bankruptcy cases and 45 active litigation matters (other than in bankruptcy court). PBGC
records as a liability on its financial statements an estimated cost for unresolved litigation to the extent that
losses in such cases are probable and estimable in amount. PBGC estimates that possible losses of up to
$180 million (due primarily to new issues in active litigation) could be incurred in the event that PBGC
does not prevail in these matters. These possible losses are not recognized in the financial statements.


Note 15 -- Subsequent Events
     Changed business and financial conditions subsequent to September 30, 2005, will result in the
PBGC adding plans to its probable or terminated inventory in the single-employer program in FY 2006.
If these changed business and financial conditions had occurred prior to FY 2005 year-end, PBGC’s
financial statements would have reflected a decrease of $2.9 billion in Net income and a decrease in the
Net position in the same amount.
        There was no subsequent event to report on the multiemployer program.
    Section V 


Agency Comments 

 "v~
PBGC
Protecting   America..   Pensions
                                    Pension Benefit Guaranty Corporation
                                    1200 K Street, N.W., Washington, D.C. 20005-4026

Office of the Executive Director
                                                                                         NOV   -9   2005
              TO:                          Robert L. Emmons, Inspector General

              FROM:
                                           Bradley D. Bel~
              SUBJECT:                     PBGC's Response to the FY 2005 and FY 2004 Financial
                                           Statements Audit Reports

              We appreciate the opportunity to respond to the Fiscal Year 2005 fmancial statements
              audit reports prepared by Clifton Gunderson with the oversight of the PBGC Office
              of Inspector General (OIG). The Fiscal Year 2005 report marks the 13th consecutive
              year we have received an unqualified audit opinion on our fmancial statements. Our
              fmancial results again underscore the fmancial challenges facing PBGC, the threats to
              the long-term viability of the pension insurance program, and the need for
              comprehensive pension reforms to strengthen the retirement security of the 44 million
              Americans protected by PBGC.

              We are pleased that the OIG and Clifton Gunderson recognized the improvements
              that the Corporation has made to improve our controls over the calculation and
              reporting of single and multiemployer plan contingent liabilities, which had been
              identified as reportable conditions last year. We also appreciate your recognition of
              the progress we have made on the three previous conditions which remain open and
              share your view as to the importance of the new condition you have opened.

              PBGC agrees with the findings and recommendations underlying the four reportable
              conditions that were identified in the Report on Internal Control this year and is
              committed to addressing these matters in a timely manner to further improve our
              internal processes and systems. We provide comments relating to each reportable
              condition below:

                    .     Systems Integration - While it is true that the reportable condition remains open,
                          the groundwork has been laid for this condition to close out, perhaps with the
                          implementation of our integrated general ledger system in the middle of next year.
                          In 2005, PBGC structured a bid process for and then solicited and retained a
                          system integration contractor to complete the consolidation of its fmancial
                          systems and to perform Business Process Re-engineering (BPR) for increased
                          integration between those systems and others in the corporation. The design is
                          complete on standardizing data classifications and common data elements that
                          will form the basis for that integration. The new accounting system that will
                          replace the existing Performance Accounting, Trust Accounting, and Financial
                          Reporting systems and their related interfaces is scheduled to go live at the end of
    June 2006. The BPR and the design, development, and implementation work on
    related systems will be accomplished in phases with full implementation by the
    end of FY 2007.

.   Systems Security - While this reportable condition too remains open from last
    year, changes implemented late in FY 2005 and scheduled for early in January FY
    2006 should enable it to close out in FY 2006. PBGC's Office ofInformation
    Technology (OIT) has assigned resources to complete implementation efforts to
    update the general security plan and associated security policies to reflect the
    current operating environment and to complete the implementation of a fully
    functional and integrated enterprise-wide information security program. In
    addition, OIT has developed a high level control framework of risk
    assessment/evaluation, establishing a risk mitigation plan and long term strategy
    encompassing control objectives, control techniques, monitoring and periodic re-
    evaluations. This program was developed using industry standards such as
    COBIT, NIST, applicable OMB circulars, etc. The compliance mechanisms will
    ensure that all major systems comply with the enterprise-wide information
    security program and ensure that policies and procedures for access to and
    security of information resources are consistently applied. PBGC expects to
    complete work on a significant number, if not all, of the recommendations
    underlying this reportable condition during FY 2006.
.   Premiums - This condition remains open from 2004 as a result of the removal of
    the implementation contractor in 2005. Though the project has retrenched with
    assignment of detailed design responsibility to another contractor, progress on
    data quality and suspense item controls has been made with the new data capture
    contractor and image capture systems and with new manual controls. PBGC's
    Financial Operations Department has made considerable progress in addressing
    recommendations underlying this area, and expects that the implementation of the
    Premium Practitioner System in January 2007 will complete remaining open
    aspects of this reportable condition such that they can be removed. The new
    system is designed to improve timeliness and accuracy in premium operations in
    order to strengthen [mancial management and customer service and will be
    supplemented with comprehensive documentation of procedures for processing
    and estimating premiums.

.   Continuity of Operations - PBGC has a current Continuity of Operations Plan
    (COOP) that outlines specific actions to ensure completion of identified essential
    functions for an interim period of up to 30 days. The PBGC COOP Plan was
    prepared using the guidance from Federal Preparedness Circular 65 issued by the
    Federal Emergency Management Agency in June 2004. The OIG and Clifton
    Gunderson have properly defined an expanded scope for contingency planning for
    the agency to include COOP, Devolution Planning, and Reconstitution Planning.
    PBGC did experience a computer failure that occurred in late September 2005
    disrupting the use of PBGC network drives and electronic mail systems and
    concurs that this experience exposed weaknesses in our pre-defined response and
       remediation procedures. PBGC has hired an outside consultant to assist
       management in determining the root causes of this disruption and identifying
       appropriate changes to our existing COOP and contingency planning processes to
       make them more responsive to different types of resource or service disruptions.
       We also expect to run more rigorous readiness tests to confIrm the results of those
       efforts. We expect that these recommendations should be addressed during FY
       2006.

We very much appreciate the work of the 01G and Clifton Gunderson to complete a
complex audit within the 45-day period specifIed in the President's Management
Agenda, and we look forward to continue to proactively work with you in ensuring
that PBGC controls are operating effectively. Again, thank you for the opportunity to
respond.
